APPejcaix. "a

11

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6325
(1:20-cv-00051-TSE-JFA)

ALEXANDER CAMERON
Petitioner - Appellant
v.
JOHN F. WALRATH, Warden
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6325
ALEXANDER CAMERON,
Petitioner - Appellant,
v.
JOHN F. WALRATH, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. T. S. Ellis, III, Senior District Judge. (l:20-cv-00051-TSE-JFA)
Submitted: July 23, 2020

Decided: July 28, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Alexander Cameron, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

i

PER CURIAM:
Alexander Cameron seeks to appeal the district court’s order dismissing his 28
U.S.C. § 2254 (2018) petition as an unauthorized, successive § 2254 petition. The order is
not appealable unless a circuit justice or judge issues a certificate of appealability. See 28
U.S.C. § 2253(c)(1)(A) (2018). A certificate of appealability will not issue absent “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (2018).
When, as here, the district court denies relief on procedural grounds, the prisoner must
demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Cameron has not
made the requisite showing. Accordingly, we deny a certificate of appealability, deny
leave to proceed in forma pauperis, and dismiss the appeal. We also deny Cameron’s
motions to identify the blood type of the victim and to appoint counsel. We dispense with
oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
DISMISSED

2

Appgjj tapy •' b '*

Case l:20-cv-00051-TSE-JFA Document 4 Filed 02/25/20 Page 1 of 8 PagelD# 161

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Alexander Cameron,
Petitioner,
v.
John F. Walrath, Warden,
Respondent.

)
)
)
)
)
)
)

l:20cv51 (TSE/JFA)

ORDER
Alexander Cameron, a Viiginia inmate proceeding pro se. has filed a petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254, challenging the constitutionality of his October 22,
1987 convictions in the Circuit Court of the City of Alexandria. Petitioner previously filed a
§ 2254 habeas corpus petition regarding the same conviction, the grounds of which were
reviewed and dismissed on the merits and due to procedural defaults. Cameron v. Garraehtv.
1:01cvl 192 (E.D. Va. OcL 2,2002). Title 28 U.S.C. § 2244(b) compels the district court to
dismiss a second or successive habeas corpus petition absent an order from a panel of the court
of appeals authorizing the district court to review such a petition. The couit of appeals will only
authorize such a review if a petitioner can show that (1) the claim has not been previously
presented to a federal court on habeas corpus, and (2) the claim relics on a new rule of
constitutional law made retroactive to cases on collateral review by the Supreme Court, or the
claim relies on facts which could not have been previously discovered by due diligence and
which show "‘by clear and convincing evidence that, but for constitutional error, no reasonable
fact finder would have found the applicant guilty of the underlying offense ” 28 U.S.C. §

Case l:20-cv-00051-TSE-JFA Document 4 Filed 02/25/20 Page 2 of 8 PagelD# 162

2244(b)(2)(B)(ii). The gale keeping mechanism of § 2244 affords a petitioner “an opportunity to
bring new claims where the petitioner can show that he was not at fault for failing to raise those
claims previously and where the claim, if meritorious, would sufficiently undermine confidence
in the judgment at issue.” Evans v. Smith. 220 F.3d 306,323 (4th Cir. 2000). The power to
determine whether a claim satisfies the requirements of § 2244. however, does not lie with the
district court. It “must be made by a court of appeals.” In re Williams 364 F.3d 235,238 (4th
Cir. 2004). Where a court of appeals has not authorized a second or successive habeas petition,
“the district court lacks jurisdiction” to hear the claim. Evans. 220 F.3d at 325. Petitioner has
not provided an appropriate order from the United States Court of Appeals for the Fourth Circuit,
and this Court therefore lacks jurisdiction to consider this successive petition.
Accordingly, it is hereby
ORDERED that this action be and is DISMISSED, WITHOUT PREJUDICE to
petitioner’s right to move a panel of the United States Court of Appeals for the Fourth Circuit for
an order authorizing this Court to consider the petition.
To appeal this decision, petitioner must file a written notice of appeal with the Clerk’s
Office within thirty (30) days of the date of this Order. A written notice of appeal is a short
statement stating a desire to appeal this Order and noting the dace of the Order petitioner wants to
appeal. Petitioner need not explain the grounds for appeal until so directed by the Court.
Petitioner must also request a certificate of appealability from a circuit justice or judge. See 28
U.S.C. § 2253 and Fed. R. App. P. 22(b). This Court expressly declines to issue such a
certificate.

2

Case l:20-cv-00051-TSE-JFA Document 4 Filed 02/25/20 Page 3 of 8,PagelD# 163

The Clerk is directed to send a copy of this Order and a standard §2244 form to petitioner
and to close this civil case.

Ottered this

day of

, 2020.

Alexandria, Virginia

T. S. Ellis, m
United States district Judge

3

APPeaJPB

FILED: September 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6325
(1:20-cv-00051 -TSE-JFA)

ALEXANDER CAMERON
Petitioner - Appellant
v.
JOHN F. WALRATH, Warden
Respondent - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

